Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




WYOMING INCORRECTLY CLAIMED
ENHANCED REIMBURSEMENT FOR
 MEDICAID FAMILY PLANNING
    STERILIZATION COSTS




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                       August 2012
                                                      A-07-11-01100
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Wyoming, the Department of Health (State
agency) is responsible for administering the Medicaid program.

The amount that the Federal Government reimburses to State Medicaid agencies, known as
Federal financial participation or Federal share, is determined by the Federal medical assistance
percentage (FMAP), which varies based on a State’s relative per capita income. The State
agency’s FMAP ranged from 50.00 percent to 61.59 percent for claims paid during calendar
years (CY) 2006 through 2010.

Federal requirements authorize Federal reimbursement at an enhanced 90-percent rate (90-
percent rate) for family planning services, which include services that prevent or delay
pregnancy or otherwise control family size. The State agency may claim the 90-percent rate for
inpatient sterilization procedures if the individual provides written consent and is at least 21
years old at the time of consent. When sterilization and delivery procedures are performed
during a single hospital stay, CMS requires that the State agency’s claim for Federal
reimbursement distinguish between those costs attributable to family planning (eligible for
Federal reimbursement at the 90-percent rate) and those costs attributable to other covered
services (reimbursed at the FMAP). Federal requirements also specify that hysterectomies must
be claimed at the FMAP for Federal reimbursement.

During CYs 2006 through 2010, the State agency incurred costs of $7,216,242 for 1,638
inpatient claims with delivery and sterilization procedures, which served as the basis for the State
agency to calculate and claim Federal reimbursement.

OBJECTIVE

Our objective was to determine whether the State agency claimed costs for Medicaid family
planning inpatient sterilization procedures for CYs 2006 through 2010 pursuant to Federal and
State requirements.

SUMMARY OF FINDINGS

The State agency did not always claim costs for Medicaid family planning inpatient sterilization
procedures for CYs 2006 through 2010 pursuant to Federal and State requirements. The State
agency claimed 308 of the 1,638 family planning sterilization procedure claims using the correct
rates of Federal reimbursement. However, the remaining 1,330 claims (4 claims contained



                                                 i
multiple errors) were claimed at incorrect rates of Federal reimbursement or were unallowable,
resulting in unallowable Federal reimbursement totaling $1,348,942. These errors included:

   •    1,325 inpatient claims for delivery and sterilization procedures for which the State
        agency claimed either family planning or non-family planning costs using incorrect rates
        of Federal reimbursement (total of $1,336,775),

   •    5 inpatient sterilization claims that lacked the proper consent and that were therefore
        unallowable for Federal reimbursement (total of $2,880), and

   •    4 claims for hysterectomy procedures that were incorrectly classified as family planning
        services and for which the State agency incorrectly claimed costs at the 90-percent rate
        instead of at the FMAP (total of $9,287).

These errors occurred because the State agency’s controls were not adequate to ensure that it
claimed costs pursuant to Federal and State requirements over the course of the audit period.

RECOMMENDATIONS

We recommend that the State agency:

    •   refund $1,348,942 to the Federal Government;

    •   review costs for inpatient sterilization procedures for quarterly reporting periods after our
        audit period and refund overpayments, if any, to the Federal Government; and

    •   strengthen internal controls to ensure that costs for Medicaid family planning
        sterilization procedures are claimed pursuant to Federal and State requirements.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and said
that it would perform the actions described in our recommendations.

The State agency’s comments are included in their entirety as the Appendix.




                                                 ii
                                                 TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION ................................................................................................................. 1

      BACKGROUND ............................................................................................................. 1
            Medicaid Program ............................................................................................ 1
            Wyoming Medicaid Program ........................................................................... 1
            Medicaid Coverage of Family Planning Inpatient Services ............................ 1
            Family Planning Inpatient Sterilization Procedure Claims in Wyoming......... 2

      OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 2
             Objective .......................................................................................................... 2
             Scope................................................................................................................ 2
             Methodology .................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ....................................................................... 4

      INCORRECT FEDERAL REIMBURSEMENT FOR
        FAMILY PLANNING SERVICES ............................................................................ 4
            Incorrect Rates of Federal Reimbursement Used to Calculate
               Federal Financial Participation for Inpatient Delivery and
               Sterilization Procedures .............................................................................. 4
            Improper Consent for Sterilization Procedures................................................ 5
            Hysterectomies Incorrectly Claimed as Family Planning................................ 6

      INADEQUATE INTERNAL CONTROLS ..................................................................... 6

      UNALLOWABLE CLAIMS FOR FEDERAL REIMBURSEMENT ............................ 6

      RECOMMENDATIONS ................................................................................................. 6

      STATE AGENCY COMMENTS ................................................................................... 7

APPENDIX

      STATE AGENCY COMMENTS




                                                                   iii
                                      INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

The Standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program (CMS-64 report), reports actual Medicaid expenditures for each quarter.
CMS uses the CMS-64 report to reimburse States for the Federal share of Medicaid
expenditures. The amounts reported on the CMS-64 report and its attachments must be actual
expenditures that can be supported with documentation.

Wyoming Medicaid Program

In Wyoming, the Department of Health (State agency) is responsible for administering the
Medicaid program. The amount that the Federal Government reimburses to State Medicaid
agencies, known as Federal financial participation (FFP) or Federal share, is determined by the
Federal medical assistance percentage (FMAP), which varies based on a State’s relative per
capita income. The State agency’s FMAP ranged from 50.00 percent to 61.59 percent for claims
paid during calendar years (CY) 2006 through 2010 (January 1, 2006, through December 31,
2010).

Medicaid Coverage of Family Planning Inpatient Services

Section 1905(a)(4)(C) of the Act requires States to furnish family planning services and supplies
to individuals of childbearing age (including minors who can be considered sexually active) who
are eligible under the State plan and who desire such services and supplies. Section 1903(a)(5)
of the Act and 42 CFR §§ 433.10(c)(1) and 433.15(b)(2) authorize Federal reimbursement at an
enhanced 90-percent rate (90-percent rate) for family planning services.

Section 4270 of the CMS State Medicaid Manual (the Manual) describes family planning
services as those that prevent or delay pregnancy or otherwise control family size. Family
planning services include, but are not limited to, the following items and services: counseling
services and patient education; examination and treatment by medical professionals pursuant to
States’ requirements; devices to prevent conception; sterilization procedures; and may include
infertility services, including sterilization reversals.

The CMS Financial Management Review Guide Number 20: Family Planning Services (the
Guide) provides specific instructions for performing financial management reviews of claims for

                                                1
family planning services. The Guide refers to a 1980 policy memorandum on CMS’s policy for
allocating family planning inpatient hospital costs in cases when multiple procedures are
performed. That CMS policy states that when multiple procedures are performed during a single
hospital stay and submitted as a single inpatient claim, a State claim for Federal reimbursement
must distinguish between those costs attributable to family planning (eligible for Federal
reimbursement at the 90-percent rate) and those costs attributable to other covered services
(reimbursed at the FMAP).

Family Planning Inpatient Sterilization Procedure Claims in Wyoming

To identify claims that include family planning inpatient sterilization procedures, the State
agency used indicators such as procedure codes, diagnosis codes, surgical procedure codes, and
modifiers. On claims with both sterilization (family planning) and delivery (non-family
planning) procedures, the State agency had a policy to assign a fixed amount as the cost
attributable to the sterilization procedure (eligible for reimbursement at the 90-percent rate) and
classified the remainder (delivery portion) of cost as non-family planning services (eligible for
reimbursement at the FMAP).

For each claim that includes an inpatient sterilization procedure, the State agency obtains and
reviews a consent form before paying the claim. Further, an inpatient sterilization procedure for
an individual under the age of 21 at the time of consent is not a Medicaid-covered benefit in
Wyoming.

Federal regulations provide that hysterectomy procedures are eligible for Federal reimbursement
at the FMAP under certain circumstances. The State agency obtains and reviews consent forms
for hysterectomy procedures before paying the claims.

During CYs 2006 through 2010, the State agency incurred costs of $7,216,242 for 1,638
inpatient claims with delivery and sterilization procedures, which served as the basis for the State
agency to calculate and claim Federal reimbursement.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed costs for Medicaid family
planning inpatient sterilization procedures for CYs 2006 through 2010 pursuant to Federal and
State requirements.

Scope

We reviewed 1,638 inpatient claims with sterilization procedures for which the State agency
incurred costs of $7,216,242 for claims for CYs 2006 through 2010. These claims included four
claims for hysterectomy procedures. For these 1,638 claims, the State agency claimed Federal
reimbursement of $5,347,751 at either the 90-percent rate or the FMAP.



                                                 2
We did not review the State agency’s overall internal control structure because our objective did
not require us to do so. Rather, we reviewed only the internal controls directly related to our
objective. Achieving our objective did not require us to perform a medical necessity review of
the selected services or claims.

We performed fieldwork at the State agency in Cheyenne, Wyoming, during June and
August 2011.

Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, Federal and State regulations, CMS guidance, and the
       State plan;

   •   held discussions with CMS officials to gain an understanding of CMS requirements and
       guidance furnished to State agency officials on Medicaid family planning claims;

   •   held discussions with State agency officials to gain an understanding of how the State
       agency claimed Medicaid reimbursement for family planning inpatient services,
       including family planning sterilization procedures;

   •   obtained and reviewed the State agency’s claims data for all inpatient claims with
       sterilization procedures;

   •   reconciled family planning expenditures for inpatient sterilization procedures reported on
       the CMS-64 reports with the State agency’s claims data;

   •   identified, on claims with both delivery and sterilization procedures, the costs that the
       State agency claimed for reimbursement at the 90-percent rate and the costs that the State
       agency claimed for reimbursement at the FMAP;

   •   obtained and reviewed the consent forms for the four hysterectomy procedures to
       determine whether the claims were allowable for Federal reimbursement;

   •   calculated the correct Federal reimbursement amount using the State agency’s policy to
       separate the costs for sterilizations and delivery procedures;

   •   calculated the amount of incorrect reimbursement for services claimed at incorrect rates
       of Federal reimbursement; and

   •   discussed the results of our review with State agency officials on January 19, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

                                                3
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The State agency did not always claim costs for Medicaid family planning inpatient sterilization
procedures for CYs 2006 through 2010 pursuant to Federal and State requirements. The State
agency claimed 308 of the 1,638 family planning sterilization procedure claims using the correct
rates of Federal reimbursement. However, the remaining 1,330 claims (4 claims contained
multiple errors) were claimed at incorrect rates of Federal reimbursement or were unallowable,
resulting in unallowable Federal reimbursement totaling $1,348,942. These errors included:

   •   1,325 inpatient claims for delivery and sterilization procedures for which the State
       agency claimed either family planning or non-family planning costs using incorrect rates
       of Federal reimbursement (total of $1,336,775),

   •   5 inpatient sterilization claims that lacked the proper consent and that were therefore
       unallowable for Federal reimbursement (total of $2,880), and

   •   4 claims for hysterectomy procedures that were incorrectly classified as family planning
       services and for which the State agency incorrectly claimed costs at the 90-percent rate
       instead of at the FMAP (total of $9,287).

These errors occurred because the State agency’s controls were not adequate to ensure that it
claimed costs pursuant to Federal and State requirements over the course of the audit period.

INCORRECT FEDERAL REIMBURSEMENT FOR
FAMILY PLANNING SERVICES

Incorrect Rates of Federal Reimbursement Used to Calculate
Federal Financial Participation for Inpatient Delivery and
Sterilization Procedures

Federal regulations (42 CFR § 433.32(a)) require that the State agency “[m]aintain an accounting
system and supporting fiscal records to assure that claims for Federal funds [reported on the
CMS-64 report] are in accord with applicable Federal requirements ….”

Pursuant to section 4270 of the Manual, only items and procedures clearly furnished or provided
for family planning purposes may be claimed at a 90-percent rate. Additionally, section
4270(B)(1) of the Manual states that “FFP at the 90 percent rate is available for the cost of a
Medicaid sterilization ….”

Contrary to these Federal requirements, the State agency claimed Federal reimbursement using
incorrect rates of Federal reimbursement for a total of 1,325 inpatient claims for either delivery
or sterilization procedures.


                                                 4
For 1,310 of the 1,325 claims, the State agency claimed the costs for either sterilization or
delivery procedures at incorrect rates of Federal reimbursement. These errors created both
overclaims and underclaims, for a net total of $1,322,223, and included:

       •   1,152 claims in which the State agency claimed the costs attributable to delivery
           procedures at the 90-percent rate instead of at the FMAP, for which the State agency
           received $1,358,159 in unallowable Federal reimbursement and

       •   158 claims in which the State agency claimed the costs attributable to sterilization
           procedures at the FMAP instead of at the 90-percent rate; because of this error, the State
           agency did not claim $35,936 in allowable Federal reimbursement.

For 15 of the 1,325 claims, the State agency distinguished between the costs for sterilization and
delivery procedures; however, it claimed each of these costs using incorrect rates to calculate
Federal reimbursement. Specifically, the State agency (1) claimed costs for sterilization
procedures at the FMAP instead of at the 90-percent rate, resulting in an underclaim and (2)
claimed costs for delivery procedures at the 90-percent rate instead of at the FMAP, resulting in
an overclaim. For these 15 claims, the State agency received a net total of $14,552 in
unallowable Federal reimbursement.

As a result of these errors, the State agency received $1,336,775 in unallowable Federal
reimbursement. 1

Improper Consent for Sterilization Procedures

Federal regulations (42 CFR § 441.253) state that Federal reimbursement is available in
expenditures for the sterilization of an individual only if “[t]he individual is at least 21 years old
at the time consent is obtained” and “[a]t least 30 days … have passed between the date of
informed consent and the date of the sterilization, except in the case of premature
delivery ….”

Wyoming Medicaid Rules, chapter 26, section 38, states that sterilizations are not covered unless
the requirements of 42 CFR pt. 441, subpart F (which contains subsection 253), are satisfied.
Therefore, a sterilization procedure is not a Medicaid-covered benefit in Wyoming for an
individual who is under the age of 21.

Contrary to these Federal and State requirements, the State agency improperly claimed $2,880 in
Federal reimbursement for five inpatient sterilization procedures that lacked proper consent.
Specifically, providers obtained consent from patients who were under the age of 21. The costs
of these sterilization procedures are not allowable for Federal reimbursement.




1
    The $1,336,775 is the net effect of the overclaims and underclaims described above.

                                                           5
Hysterectomies Incorrectly Claimed as Family Planning

Federal regulations (42 CFR § 441.255) provide that under certain circumstances Federal
reimbursement is allowable for hysterectomy procedures. For example, Federal reimbursement
is available for hysterectomy procedures if the individual has signed a consent form indicating
her understanding that the procedure will render her permanently incapable of reproducing.
Federal reimbursement is also available for cases in which the physician who performs the
hysterectomy procedure certifies in writing that the individual was already sterile at the time of
the procedure. Further, section 4270 of the Manual states: “FFP at the 90 percent rate is not
available for the cost of a hysterectomy ….” (Emphasis in original.) Therefore, the allowable
rate of Federal reimbursement for hysterectomies is the FMAP.

Contrary to these Federal requirements, the State agency incorrectly claimed $9,287 for four
hysterectomy procedures. The State agency classified them as services eligible for
reimbursement at the 90-percent rate. Subsequently, the State agency incorrectly claimed these
costs using the 90-percent rate instead of the FMAP. The four claims met the requirements for
Federal reimbursement at the FMAP.

INADEQUATE INTERNAL CONTROLS

These errors occurred because the State agency’s controls were not adequate to ensure that it
claimed costs pursuant to Federal and State requirements. The State agency had a policy to
assign a fixed amount as the cost attributable to the sterilization procedure (eligible for
reimbursement at the 90-percent rate) and classified the remainder (delivery portion) of cost as
non-family planning services (eligible for reimbursement at the FMAP). However, State agency
officials stated that problems with its computer systems caused inconsistent application of its
policy to claims with sterilization and delivery procedures.

In addition, the State agency’s controls to review consent forms for sterilization procedures did
not always prevent Federal reimbursement in cases when consent did not meet Federal and State
requirements. Finally, the State agency’s controls did not always prevent Federal reimbursement
at the 90-percent rate for hysterectomy claims.

UNALLOWABLE CLAIMS FOR FEDERAL REIMBURSEMENT

The State agency received a total of $1,348,942 of unallowable Federal reimbursement for CYs
2006 through 2010 because it claimed (1) family planning and non-family planning costs using
incorrect rates to calculate reimbursement ($1,336,775), (2) costs for sterilization procedures that
lacked proper consent ($2,880), and (3) costs for hysterectomies at the 90-percent rate instead of
at the FMAP ($9,287).

RECOMMENDATIONS

We recommend that the State agency:

    •   refund $1,348,942 to the Federal Government;

                                                 6
    •   review costs for inpatient sterilization procedures for quarterly reporting periods after our
        audit period and refund overpayments, if any, to the Federal Government; and

    •   strengthen internal controls to ensure that costs for Medicaid family planning
        sterilization procedures are claimed pursuant to Federal and State requirements.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and said
that it would perform the actions described in our recommendations.

The State agency’s comments are included in their entirety as the Appendix.




                                                 7
APPENDIX
                                                                                                           Page 1 of2


                   APPENDIX: STATE AGENCY COMMENTS


              Wyoming
                                 Commit 10 your health •
             Department
                                 .. i~il _ .helllth.wyo.gov
              of Health

 Thomas O. Forshmd, Director                                                         Governor Matthew H. M ead

                                                    June 1, 2012

                                                                                        Ref: TG-2012-00l




Mr. Patrick J. Cogley
Regional Inspector General for Audit Services
60 1 East 12 Street
Room 0429
Kansas City, MO 64106

Re: Report Number A-07-11-01100

Dear Mr. Cogley:

This letter provides the 'iVfitten comments of Wyoming Medicaid on the draft report referenced above issued
by the Office of Inspector General regarding the ~IG's review afthe Wyoming Medicaid's Family Planning
Sterilization Costs and incorrectly claimed enhanced reimbursement during the calendar years 2006 through
2010.

Wyoming Medicaid specific responses to each of the preliminary findings and reconnnendations identified
in the Draft Audit Report are li~ted helow'

DIG Fluding #1: 1,325 inpatient claims for delivery and sterilization procedures for which the State agency
claimed either family platming or non-family plarming costs using incorrect rates of Federal reimbursement
($1,336,775.00).

DIG Recommendation: Refund $1 ,336,775.00 to the Federal Goverrnnent and review costs for inpatient
sterilization procedures for quarterly reporting pericxl and refund overpayments, if any to the Federal
Goverrnnent .

Wyoming Medicaid Response: Wyoming Medicaid concurs "With the OIG findings and will refund full
amount and 'Nill review quarterly reports after the audit pericxl and refund overpayments as necessary.

DIG Flnding #2: Five (5) inpatient sterilization claims that lacked the proper consent and that were
therefore unallO\vable for Federal reimbursement (total of$2,880.00).

DIG Recommendation: Refund $2,880.00 to the Federal Goverrnnent and strengthen internal controls to
ensure that costs for Medicaid family plarming sterilization procedures are claimed pursuant to Federal and
State requirements.

Wyoming Medicaid Response: Wyoming Medicaid concurs "With the OIG findings and \Vill refund full
amount and \Vill strengthen internal controls to ensure that costs for Medicaid family plmming sterilizaion
procedures are claimed pursuant to Federal and State requirements.




         Division of Healthcare Financing, Medicaid· 6101 Yellowstone Road, Suite 210
                    CheyeIllle WY 82002· WEB Page: http://www.health:wyo.gov
                    Toll Pree: J-866-571-0944oPAX (307) 777-6964 (307) 777-7531
                                                                        0
                                                                                                              Page 2 of2



OIG Audit                                                                                         June 1, 2012
Page 2                                                                                      Ref: TG-2012-001


OIG Finding #3: Four (4) claims for hysterectomy procedures that were incorrectly classified as family
planning services and for which the State agency incorrectly claimed costs at the 90 percent rate instead of at
the FMAP, (total $9,287.00).

 OIC Recommendation: Refund $9,287.00 to the Federal Government and strengthen internal controls to
ensure that costs for Medicaid family planning sterilization procedures are claimed pursuant to Federal and
State requirements.

Wyoming Medicaid Response: Wyoming Medicaid concurs with the OIG findings and will refund full
amount and will strengthen internal controls to ensure that costs for Medicaid family planning sterilization
procedures are claimed pursuant to Federal and State requirements.

                                                          Sincerely,




                                                          Teri Green
                                                          State Medicaid Agent
                                                          Wyoming Department of Health
                                                          Division of Health Care Financing/Medicaid
                                                          Phone 307-777-7908
                                                          Fax 307-777-6964
                                                          6101 Yellowstone Road Ste., 210
                                                          Cheyenne, WY 82002



TG/sn/ct

c: 	 Matt Hager, Medicaid Accounting Manager, Division of Healthcare Financing
     Sheree Nail, Provider Services Manager, Division of Healthcare Financing
     Bob Peck, CFO, Fiscal Services, Wyoming Department of Health




           Division of Healthcare Financing, EqualityCare· 6101 Yellowstone Road, Suite 210 

                      Cheyenne WY 82002· WEB Page: http ://www.he alth .wyo .gov 

                     Toll Free 1-866-571-0944· FAX (307) 777-6964· (307) 777-7531 

